Memorandum from the Office of the Inspector General



April 11, 2005

Ellen Robinson, ET 12A-K

REQUEST FOR MANAGEMENT DECISION – AUDIT 2004-058F – REVIEW OF TVA’S
CORPORATE CONTRIBUTION PROGRAM



Attached is the subject final report for your review and management decision. As discussed
with your staff on March 8, 2005, the subject report is being issued in presentation format.
Your comments have been incorporated in the final report. You are responsible for
determining the necessary actions to take in response to our findings. Please advise us of
your management decision within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Rick L. Taylor, Senior Auditor, at (865) 632-7321 or
Gregory C. Jaynes, Manager, Financial and Operational Audits, at (865) 632-7023. We
appreciate the courtesy and cooperation received from your staff during this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RLT:SDB
Attachment
cc (Attachment):
     Katie P. Bell, ET 6A-K
     Tom D. Kilgore, ET 12A-K
     Richard W. Moore, ET 4C-K
     Randy P. Trusley, WT 5C-K
     Tracy S. Williams, ET 6A-K
     OIG File No. 2004-058F
        REVIEW OF TVA’S
        CORPORATE
        CONTRIBUTION PROGRAM

               Audit 2004-058F
                April 11, 2005

Project Lead
Rick Taylor


                                 0
AGENDA
4 Background
4 Objective and Scope
4 Methodology
4 Findings
4 Recommendations




  Office of the Inspector General
                                    1
  Audit 2004-058F
BACKGROUND
4 On June 20, 2001, the OIG issued a report on TVA’s Contributions
  Program (Audit No. 2001-028F). The OIG found among other things:

    4 TVA did not require all contribution payments to be processed through the
      corporate contributions program.
    4 Contributions processed outside the corporate program were inconsistently
      classified making it difficult to account accurately for total contributions.

4 Management actions in response to Audit 2001-028F included
  developing a TVA-wide business practice, BP 21- Contributions, to:

    4 Provide criteria for acceptable contribution expenditures.
    4 Define the types of expenditures that would be considered contributions.
    4 Define approval levels required for contributions.
    4 Establish guidance to ensure contributions are put in proper cost classification
      for reporting/accounting/budgeting and audit purposes.



  Office of the Inspector General
                                                                                      2
  Audit 2004-058F
BACKGROUND (cont’d)
4 TVA’s Business Practice 21, Contributions, states:
    4 TVA’s Corporate Contributions Program is a component of the corporate
      strategy to support public interest activities where employees and
      stakeholders live and work. The primary areas of focus include education,
      economic development, civic/business partnerships. TVA will also consider
      requests related to the areas of Health & Human Services and Arts and
      Culture.
    4 Corporate contributions are aligned with TVA’s mission, goals, and strategic
      objectives and priority consideration is given to programs and organizations
      where TVA stakeholders are actively involved.
    4 Contributions that meet TVA’s Corporate contributions program criteria may
      be made in a variety of ways, including making direct cash payme nts
      through Corporate Contributions or at the local/field level.
    4 Contributions between $1,500 and $10,000, are approved by the
      appropriate Strategic Business Unit (SBU) executive or his/her delegate.
    4 Requests exceeding $10,000 are coordinated through Corporate
      Contributions and require approval of the Contributions Committee.



  Office of the Inspector General
                                                                                     3
  Audit 2004-058F
OBJECTIVES AND SCOPE
4 Our objectives were to:
      4    Determine the types and level of contribution expenditures.

      4    Assess compliance with BP 21.


4 The scope of our review included corporate contributions made
  during fiscal years (FY) 2003 and 2004.




   Office of the Inspector General
                                                                         4
   Audit 2004-058F
METHODOLOGY
4 Interviewed Corporate Contributions personnel to obtain an
  understanding of the contribution processes and the Contribution
  Tracking System.

4 Reviewed relevant reports and other documents relating to Corporate
  Contribution’s program.

4 Used transaction information provided by Corporate Contributions to
  determine the types and level of contributions for FYs 2003 and 2004
  that were processed through Corporate Contributions.
4 Determined the FY 2003 and 2004 amount of contributions
  administered outside Corporate Contributions by subtracting Corporate
  Contributions totals from Integrated Business System (IBS) 2003 and
  2004 year-end totals for cost classification 41Z (Contributions).

4 Reviewed system information and other reports relating to
  miscellaneous, purchasing card, and convenience check payments to
  determine if payments were properly classified.

  Office of the Inspector General
                                                                          5
  Audit 2004-058F
METHODOLOGY (cont’d)
4Reviewed a judgmental sample of 132 contribution payments to determine if
 the payments were (1) approved in accordance with BP 21 – Contributions,
 (2) documented, and (3) classified correctly as contributions. Specifically, we
 reviewed:

    4 90 payments made through the Corporate Contributions organization totaling
      $509,514.

    4 14 payments exceeding $10,000 each totaling $982,732 representing
      contribution payments that were made outside the Corporate Contribution
      organization and approved prior to BP 21.

    4 28 contributions made by convenience checks, totaling $19,085, that were
      outside the Corporate Contributions organization.


  Audit was performed in accordance with generally accepted government
  auditing standards.


  Office of the Inspector General
                                                                                   6
  Audit 2004-058F
FINDING 1 – LEVEL / TYPES OF
EXPENDITURES
According to TVA’s IBS financial accounting system, TVA classified
$1.261 million and $1.646 million in FY 2003 and 2004 as 41Z cost
classification charges which represents contribution dollars.


         Total Fiscal Year 2003                             Total Fiscal Year 2004
        Contributions - $1,260,531                         Contributions - $1,646,026


                                                                                                 $600,376


    $620,400                                  $640,131


                                                         $1,045,650




        Corporate Contribution Organization
                                                           Corporate Contribution Organization
                                                           Outside Corporate Contribution Organization
        Outside Corporate Contribution Organization




  Office of the Inspector General
                                                                                                            7
  Audit 2004-058F
FINDING 1 – LEVEL / TYPES OF
EXPENDITURES
4 Contributions administered by the Corporate Contribution organization
  totaled $640,131 and $600,376 in FY 2003 and 2004, respectively. The
  largest category of contributions was the Civic/Business/Distributor
  Partnership category.
          FY 2003 Totaled $640,131                  FY 2004 Totaled $600,376

            $73,611                                                   $3,489 $71,466
                                   $128,356
                                                      $127,300



                                        $67,143                                             $151,942


      $290,742
                                     $80,279          $196,727
                                                                                    $49,452

           Arts and Culture                                Arts and Culture
           Education                                       Education
           Economic Development                            Economic Development
           Civic/Business/Distributor Partnership          Civic/Business/Distributor Partnership
           Health and Human Services                       Health and Human Services
                                                           Other




  Office of the Inspector General
                                                                                                       8
  Audit 2004-058F
FINDING 1 – LEVEL / TYPES OF
EXPENDITURES
4 Contributions administered outside the Corporate Contribution
  organization totaled $620,400 and $1,045,650 in FY 2003 and 2004,
  respectively.

4 The largest individual contributions were not administered through
  Corporate Contributions, including $200,000 to the Country Music
  Foundation in FY 2003 and 2004.




  Office of the Inspector General
                                                                       9
  Audit 2004-058F
FINDING 1 (cont’d)
Top five contributions by dollar amount per FY:
                  FY 2003                                                         FY 2004

Corporate Contributions *
4 United Way of Knoxville             $50,000                    United Way of Knoxville              $50,000
4 United Way of Memphis               $50,000                    Knox Sports Corp                     $30,000
4 Knox Chamber                        $23,230                    Boys & Girls Club of Knox            $20,000
4 Boys & Girls Club of Knox           $20,000                    River Bend Festival                  $20,000
4 River Bend Festival                 $20,000                    Various                              $10,000

Outside Corporate Contribution Organization **
4 Country Music Foundation $200,000                              Country Music Foundation             $200,000
4 Memphis Reg. Chamber       $200,000                            Tennessee Aquarium                   $100,000
4 Mid South Min. Business $100,000                               Mid South Minority Business          $100,000
4 TVA Power Distributors     $ 80,640                            TVA Power Distributors               $ 42,732
4 Alabama Rural Electric     $ 25,000                            University of Tennessee              $ 30,000
 * According to Communications and Government Relations personnel, TVA’s Board of Directors, as the governing body
   of TVA, approved the above contributions over $10,000 which did not go before the Contributions Committee.
 **The contributions were for commitments made prior to BP 21.
    Office of the Inspector General
                                                                                                           10
    Audit 2004-058F
FINDING 2 – COMPLIANCE WITH
BUSINESS PRACTICE 21
4We reviewed 132 contributions totaling $1,511,331 and noted the
 following exceptions:

    4 34 transactions greater than $10,000, totaling $1,369,527, were not
      reviewed by the Contribution Committee as required by BP 21. However,
      14 were approved prior to BP 21 and 20 were approved by the TVA Board
      of Directors.

    4 22 transactions, totaling $13,635, were charged to incorrect cost
      classifications.

    4 2 transactions, totaling $350, were not properly documented.




 Office of the Inspector General
                                                                              11
 Audit 2004-058F
FINDING 3 – OTHER ISSUES
 4 We identified $160,580 in purchasing card payments outside of
   Corporate Contributions during FY 2003 and 2004 that appear to be
   contributions that were charged to a cost classification other than IBS
   cost classification 41Z. We did not verify these payments were
   contributions but based on the payee and dollar amount, the payments
   appear to be contributions.

 4 Corporate Contributions maintains a Contribution Tracking System to
   obtain information on cash contributions that TVA reports to Valley
   communities and other stakeholders. Organizations contribute to the
   tracking system on a voluntary basis only. The tracking system is not
   reconciled to the IBS 41Z cost classification (contributions) charges.
   Therefore, the tracking system may not reflect all TVA contributions.




  Office of the Inspector General
                                                                            12
  Audit 2004-058F
RECOMMENDATIONS
4 We recommend the Vice President, External Communications, in
  consultation with the TVA Controller, consider the following
  improvement opportunities:

    4 Revise BP 21 to either (1) acknowledge the TVA Board’s authority to make
      contributions without Contribution Committee approval or (2) ensure
      Contribution Committee review of Board contribution activities.

    4 Improve monitoring of contribution activity by requiring Business Service
      Managers to accurately report all contributions in the Contribution Tracking
      System.

    4 Ensure contributions are properly classified in accordance with Accounting
      Procedure 9.




 Office of the Inspector General
                                                                                     13
 Audit 2004-058F
